              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Information System Development
Practices at the Bonneville and
Western Area Power Administrations




DOE/IG-0586                                 February 2003
INFORMATION SYSTEM DEVELOPMENT PRACTICES AT THE
BONNEVILLE AND WESTERN AREA POWER ADMINISTRATIONS

TABLE OF
CONTENTS



              System Development

              Details of Finding ........................................................................1

              Recommendations and Comments.............................................4


              Appendices

              1. System Development Projects Reviewed ..............................6

              2. Objective, Scope and Methodology .......................................7

              3. Prior Reports ..........................................................................9

              4. Management Comments......................................................10
SYSTEM DEVELOPMENT

Development     Our review of 11 major projects (see Appendix 1) disclosed that
Activities      information systems development activities were not always consistent
                with Federal requirements or guidance. We found development
                problems with nine of the projects. For example:

                •   Key planning activities such as cost-benefit analyses had not been
                    performed for eight of the projects we reviewed;

                •   Evaluations of suitability of potential software solutions were often
                    inadequate or had not been performed;

                •   Many projects were not adequately monitored and controlled
                    throughout their lifecycle, and project baselines and plans were not
                    revisited in light of scope changes or delays; and,

                •   For 6 of the 11 projects reviewed, reengineering studies designed to
                    improve business processes before beginning development had not
                    been conducted.

                In addition, Bonneville and Western did not consistently include all
                relevant project costs in accounting for its development efforts.

                          Project Planning, Monitoring, and Control Examples

                In October 1999, Bonneville determined that a new billing system was
                critically needed due to major changes in the energy industry. The
                system was intended to replace a legacy system, generate electronic
                statements, and interface with the corporate accounting system. The
                new system was to be used by both of Bonneville's major operating
                units, the Power and the Transmission Business Lines. While initial
                project costs and timeframe baselines were estimated and a project plan
                was developed, an initial cost-benefit analysis was not performed.
                Additionally, planning and baseline documents were not revised to
                reflect numerous contract modifications and an estimated schedule
                slippage of over two years. These factors contributed to the termination
                of the transmission billing portion of the development contract and an
                increase in the projected cost to produce usable systems to support both
                business lines.

                In another example, the Bonneville Power Business Line initiated a
                development project designed to replace a largely manual process for
                tracking power market trading floor transactions. Because the planned
                system was based on a model already in use at various utilities,
                management believed it could be easily implemented. Although

Page 1                                                                Details of Finding
                         Bonneville performed some limited testing of the proposed system, it
                         began development without performing a detailed analysis of its
                         suitability. In addition, even though Bonneville was automating a
                         largely manual process, it did not examine opportunities to reengineer
                         and improve the existing business processes. Further, management was
                         unable to determine if overall project costs were reasonable because a
                         cost-benefit analysis was not performed. Subsequently, this
                         development project experienced unanticipated modifications that cost
                         over $600,000.

                         Additionally, three of Western's four regional offices independently
                         developed and maintained separate billing information systems despite
                         having the same core purpose. Specifically, Western permitted its
                         Desert Southwest, Sierra Nevada, and Upper Great Plains Regions to
                         develop separate power billing systems even though they had the same
                         core functions. While Western considered consolidating its various
                         billing systems, it did not perform a detailed analysis to evaluate
                         commonalities or the extent of duplication occasioned by using
                         separate, stand-alone systems. To its credit, after considering a number
                         of options, the Rocky Mountain Region ultimately adopted the system
                         in use by Sierra Nevada rather than initiating a fourth development
                         effort.

                                                     Cost Accounting

                         Contrary to Office of Management and Budget policy requiring
                         accurate and complete lifecycle cost analysis, Bonneville and Western
                         did not consistently collect or report all relevant information technology
                         related project costs. For instance, project managers did not always
                         accumulate all development costs such as Federal/contractor labor and
                         overhead costs associated with the project. Bonneville and Western
                         management told us they were unable to consistently provide accurate
                         project costs because costs were not centrally managed and there were
                         no local requirements to track all costs over the project's lifecycle. Due
                         to deficiencies in the process for accumulating costs, we were unable to
                         either confirm actual project costs or accurately compare costs against
                         initial estimates.

Guidance and Oversight   Bonneville and Western development activities experienced difficulties
                         because management had not instituted an adequate system
                         development methodology. For the 11 projects we reviewed, system
                         development methodologies varied widely. In addition, a lack of
                         thorough and consistent monitoring and oversight of projects by the


Page 2                                                                         Details of Finding
                    Chief Information Officers (CIOs) contributed to the identified
                    problems with systems development. Specifically, program elements
                    did not coordinate all system development activities with the CIOs.

                    Both Bonneville's business lines and Western's regional offices
                    planned, developed and implemented information systems independent
                    of the respective CIO's involvement. The Bonneville CIO only oversaw
                    about three percent of the estimated $100 million information
                    technology budget and only had oversight authority over corporate
                    systems. He did not oversee many significant business-line specific
                    projects, such as the Power Billing System development. At Western,
                    the regional offices controlled individual information technology
                    budgets, and only enterprise-wide projects fell within the purview of the
                    CIO. Thus, the CIO did not review all region-specific system
                    development and upgrade initiatives.

Schedule and Cost   These observed development issues contributed to cost increases,
                    delays, and end products that did not always meet users' needs. In
                    addition, top-level management at Bonneville and Western often lacked
                    sufficient information to properly evaluate investment decisions. They
                    did not act quickly to prevent or ameliorate project cost overruns
                    totaling over $11 million as well as extensive project delays. We noted
                    delays of two years or more for 4 of the 11 system implementations
                    reviewed. In addition, some projects were cancelled or significantly
                    revised because the end-products did not meet users' needs. As an
                    example, inadequate monitoring and control of Bonneville's
                    development of a power and transmission billing system contributed to
                    the termination of the transmission billing portion of the development
                    contract, the write-off of approximately $9 million in development
                    costs, and a $5 million increase in the projected cost to produce usable
                    billing systems. For Bonneville's power market trading floor tracking
                    system, inadequate planning and preparation contributed to
                    unanticipated modifications and a rise in estimated project costs from
                    about $1.2 million to over $1.8 million. Furthermore, costs for many of
                    the 11 projects were likely understated due to inadequate accounting for
                    project costs. Without complete cost information, management lacked
                    sufficient information to fully evaluate the cost of information
                    technology project costs versus the benefit to be derived.




Page 3                                                                   Details of Finding
RECOMMENDATIONS       To improve the management of information system development
                      activities, we recommend that the Administrators for Bonneville and
                      Western require the:

                         1. Development and consistent implementation of a
                            comprehensive information system development methodology,
                            to include accounting for all relevant project costs.

                         2. Coordination of all information system development activities
                            with the CIO to ensure that all projects receive adequate
                            monitoring, oversight, and evaluation throughout their lifecycle.


MANAGEMENT REACTION   Western and Bonneville management concurred with our
                      recommendations and indicated that they had taken or initiated
                      corrective action.

                      Western, however, noted that its three regional power billing systems
                      were developed specifically to support the region that they served.
                      Western management indicated that the functionality of existing power
                      billing systems was examined before initiating new development, and
                      that a path was chosen after evaluating the cost and breadth of the
                      customization required for existing systems. Management also noted
                      that the three power billing systems were developed in 1994, 1997, and
                      1999, prior to the establishment of the position of Chief Information
                      Officer in Western in 2000.

                      Bonneville management indicated that acquisition decisions for major
                      information system developments are supported by in-depth cost
                      benefit analyses and due diligence examinations of vendors and their
                      products. Nevertheless, Bonneville stated that the most diligent
                      planning and monitoring could not prevent the damage associated with
                      vendor bankruptcy, a significant factor in the ultimate abandonment of
                      a portion of its billing system at a loss of $9 million.


AUDITOR COMMENTS      We recognize that the development of Western's power billing systems
                      was completed prior to establishing the position of Chief Information
                      Officer and that officials conducted some analysis of the cost of
                      modifying existing systems. However, Western did not take into
                      consideration the continuing costs of operating, maintaining, and
                      upgrading three separate billing systems. Federal policy requires that
                      management fully consider the costs and benefits of alternative
                      approaches before initiating a development effort.

Page 4                                                 Recommendations and Comments
         With regard to Bonneville's development of its Transmission Business
         Line billing systems, we acknowledge that the project management
         weaknesses identified in our report were not the sole cause of the
         $9 million loss. During our audit we learned that the vendor was
         experiencing business difficulties, and had been for a long period, but
         had not declared bankruptcy. As noted in Federal systems development
         guidance, the application of sound project management practices may
         have helped management identify vendor difficulties and could have
         permitted an orderly transfer of the development effort to another firm.




Page 5                                                               Comments
Appendix 1

                SYSTEM DEVELOPMENT PROJECTS REVIEWED


                                   Bonneville Power Administration


         Power Business Line – Information Factory Project                        $20,940,000
         Power Business Line – Power Billing System                                14,054,000
         Transmission Business Line – Transmission Billing System                  11,299,630
         Power Business Line – Transaction Scheduling System                        9,300,000
         (TSS)
         Power Business Line – Generation Management System                         7,500,000
         Transmission Business Line – RODS Transition to ETMS/                      2,175,000
         BCS Project
         Power Business Line – KW3000 System                                        1,810,800
         Transmission Business Line – COMPASS Phase II Project                        200,000




                                 Western Area Power Administration


         BIDSS/MAXIMO Upgrade Project                                             $11,400,000
         Rocky Mountain Region TIGER Project                                        1,562,955
         Rocky Mountain Region Power Billing System                                  124,500




Page 6                                                       Systems Development Projects Reviewed
Appendix 2

OBJECTIVE AND SCOPE   The objective of our audit was to determine whether the Bonneville and
                      Western Area Power Administrations' information systems
                      development activities are consistent with Federal requirements and
                      guidance.

                      The audit was performed between May and November 2002 at the
                      Bonneville Power Administration in Portland, OR, and at the Western
                      Area Power Administration in Lakewood, CO. We did not include the
                      Southeastern and Southwestern Power Administrations within the scope
                      of this audit due to their limited system development activities.


METHODOLOGY           To accomplish our objectives, we:

                         •   Reviewed applicable laws and regulations pertaining to the use
                             and acquisition of information technology. We also reviewed
                             reports issued by the Office of Inspector General and the
                             General Accounting Office;

                         •   Reviewed best practices contained in guidance issued by the
                             Office of Management and Budget, the National Institute of
                             Standards and Technology, the General Accounting Office, and
                             other noted organizations;

                         •   Reviewed the Government Performance and Results Act of 1993
                             and determined if performance plans and measures had been
                             established;

                         •   Reviewed numerous documents related to systems development
                             at the Bonneville and Western Area Power Administrations,
                             including system development policy and guidance and
                             documentation for 11 major projects; and,

                         •   Held discussions with program officials and personnel from the
                             Bonneville and Western Area Power Administrations'
                             Headquarters, regional offices, and business lines.

                      The audit was conducted in accordance with generally accepted
                      Government auditing standards for performance audits and included
                      tests of internal controls and compliance with laws and regulations to




Page 7                                                 Objective, Scope, and Methodology
         the extent necessary to satisfy the audit objectives. Accordingly, we
         assessed internal controls regarding the development and
         implementation of information systems. Because our review was
         limited, it would not necessarily have disclosed all internal control
         deficiencies that may have existed at the time of our audit. We did not
         rely on computer-processed data to accomplish our audit objectives.
         We held exit conferences with management officials on
         December 9 and 10, 2002.




Page 8                                   Objective, Scope, and Methodology
Appendix 3
                                           PRIOR REPORTS


 OFFICE OF INSPECTOR GENERAL REPORTS


    •    Special Report on Management Challenges at the Department of Energy (DOE/IG-0580,
         December 2002). Information technology management remains one of the most serious
         challenges facing the Department. Although progress has been made in establishing
         management processes to control information technology planning and investment, and cyber
         security, the Department must still effectively implement these processes to, among other
         things, avoid system duplication and minimize vulnerabilities.

    •    Power Marketing Administrations' Installation of Fiber Optics (WR-B-02-01, October 2001).
         Bonneville and Western were installing fiber optic communication cables that exceeded their
         operational needs and exceeded the operational needs of utilities with similar requirements. By
         revising the installation to current and planned operational needs, the PMAs could save
         approximately $13 to $16 million in unnecessary costs.

    •    The Department of Energy's Implementation of the Clinger-Cohen Act of 1996 (DOE/IG-0507,
         June 2001). The Department had not been completely successful in implementing the
         requirements of the Clinger-Cohen Act of 1996. Specifically, the Department had not closely
         monitored policy implementation efforts that resulted in inconsistent adherence to policies. The
         Department's decentralized approach to information technology management and the
         organizational placement of the CIO caused these weaknesses. Also, the CIO lacked the
         authority necessary to ensure that policy implementation is consistent across the complex.

    •    The U.S. Department of Energy's Corporate Human Resource Information System (DOE/IG-
         0494, February 2001). The Department did not adhere to project planning requirements for the
         Corporate Human Resource Information System (CHRIS) project. As a consequence, full
         implementation of CHRIS was not anticipated until Fiscal Year 2005, six years after the
         original forecast. In addition, the final cost will be about $20.4 million or 155 percent greater
         than the original estimate. Because of implementation delays and projected cost overruns, it is
         unlikely that the Department will achieve the project's original estimate of approximately $9.6
         million in savings.

    •    Audit of Bonneville Power Administration's Management of Information Resources (WR-B-96-
         06, April 1996). Bonneville's management of computer-related equipment was found to be
         adequate. However, improvements could be made in implementing credit card and property
         procedures. Specifically, these procedures included control over credit card purchases,
         ensuring that equipment was tagged and included in property records, maintaining
         accountability over spare parts, and identifying unused equipment.




Page 9                                                                                        Prior Reports
Appendix 4




Page 10      Management Comments
Page 11   Management Comments
Page 12   Management Comments
Page 13   Management Comments
                                                                              IG Report No.: DOE/IG-0586

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
